U.S. General Services Administration
Office of Inspector General
August 24, 2001




               SPECIAL REPORT

  MAS PRICING PRACTICES: IS FSS
OBSERVING REGULATORY PROVISIONS
      REGARDING PRICING?




                      Jointly prepared by the
            Office of Audits and the Office of Counsel
________________________________________________________________

TABLE OF CONTENTS
____________________________________________________________________________________________

EXECUTIVE SUMMARY                                                                       1

FINDINGS                                                                                5

    Finding 1: The Federal Supply Service Is Not Consistently
    Negotiating Most-Favored Customer Pricing                                           5

       Background                                                                       5

       Review Scope and Findings: Price Negotiations Under Two of Three
       Multiple Award Schedules Examined Do Not Consistently Achieve
       Most–Favored Customer Pricing                                                    7


    Finding 2: Many Multiple Award Schedule Contract Extensions Are
    Accomplished Without Adequate Price Analysis                                        28

       Background                                                                       28

       Review Scope and Findings: Extensions Accomplished with
       Very Little Negotiation or Price Analysis                                        30

    Finding 3: Preaward Audits Are Not Being Used Effectively to
    Negotiate Better Multiple Award Schedule Prices                                     32

       Background                                                                       33

       Findings: Preaward Audits Requested on MAS Contract Actions
       Have Decreased Significantly in Recent Years                                     33

    Recommended Actions                                                                 37

APPENDICES

    Objectives, Scope and Methodology                                                   A-1

    Prior General Accounting Office Reviews of Multiple Award Schedule
    Pricing                                                                             B-1
________________________________________________________________

EXECUTIVE SUMMARY
_____________________________________________________________________________

                   FSS Is Not Following Regulatory Pricing
                 Requirements in Negotiating MAS Contracts

Program Growth

GSA’s Multiple Award Schedule (MAS) contracting program has grown
significantly in recent years. For a variety of reasons, including ease of use, it
has become one of the major vehicles through which Government agencies
purchase commercial products and services. Since fiscal year 1997, the MAS
program has doubled in terms of appropriated dollars spent by agencies
procuring products and services. In fiscal year 1997, the MAS program
generated $5.6 billion in sales; in fiscal year 2000, sales under the program
had grown to $13.6 billion.

Our Office is concerned that, as the MAS program has grown, certain program
fundamentals -- including pricing objectives and other pricing tools -- have
been marginalized. These fundamentals, which are set out by regulation,
include the mandate for most-favored customer pricing, the requirement to
perform meaningful price analysis when awarding or extending contracts, and
the use of preaward audits to assist in negotiating contracts.

MAS Pricing Fundamentals

      ¨   Most-Favored Customer (MFC) Pricing – MFC pricing ensures that
          MAS contract pricing captures the entire Government’s volume
          purchasing power, rather than leaving numerous agencies to
          negotiate individual deals -- with necessarily reduced bargaining
          power -- on their own. The MFC concept harnesses the federal
          Government’s collective buying power for pricing purposes, and is
          the raison d’être of the MAS program.

          Price Analysis – Price analysis is the key substantive step a
          contracting officer (CO) performs for the purpose of arriving at a fair
          and reasonable price, a legally-mandated standard for government
          procurement. Various methods can be used to perform a price
          analysis. For MAS contracts, because of the program’s goals and
          structure, the most feasible and effective price analysis method is to
          compare a vendor’s prices to the Government with its prices to its
          other customers. Price analyses must be meaningful and vigorous
          for all significant contract actions, including contract extensions, if
          GSA hopes to achieve good pricing under MAS contracts.



                                        1
________________________________________________________________

EXECUTIVE SUMMARY                              (Continued)
_____________________________________________________________________________

      ¨   Preaward Audits – Audits performed of a vendor’s proposal before a
          contract is awarded or a major contract action is effected are crucial
          to obtaining good MAS pricing. Preaward audits are the main tool by
          which a CO can be assured that a vendor’s pricing is as represented;
          such audits also provide COs with additional details -- and
          important associated bargaining leverage -- regarding a vendor’s
          pricing and sales practices in anticipation of negotiations. In light of
          the virtual elimination of postaward audits by GSA in 1997, these
          preaward audits are one of the Government’s sole remaining
          protections against overpricing.


GSA Needs to Refocus COs on MAS Pricing Fundamentals

Our review examined how well COs are adhering to these three MAS pricing
fundamentals which are set out in regulation. Generally, our reviews of
selected contract negotiations found that COs are not consistently negotiating
MFC pricing on MAS contracts. We also determined that COs performed
inadequate price analyses on the majority of contract extensions reviewed.
Finally, we noted a precipitous drop over a 10-year period in the number of
preaward audits conducted by GSA of MAS contracts even as MAS sales
skyrocketed.

Obtaining MFC Pricing

We reviewed contract negotiations under three MAS schedules (copiers,
information technology, and office furniture) to determine whether COs were
successfully negotiating for MFC pricing. These contracts represented $7.4
billion in expected purchases. Our results indicated --

      ¨   Of 11 copier contracts reviewed, COs achieved MFC pricing in only 1
          negotiation;

      ¨   Of 14 information technology (IT) contracts reviewed, COs achieved
          MFC pricing in 4 negotiations, and failed to achieve MFC pricing in 6
          negotiations; we were not able to determine whether MFC pricing
          was achieved in the remaining 4 negotiations; and




                                        2
________________________________________________________________

EXECUTIVE SUMMARY                             (Continued)
_____________________________________________________________________________

      ¨   Of 6 office furniture contracts reviewed, COs achieved MFC pricing in
          5 negotiations. In 1 of the 5 where MFC was achieved, the vendor
          offered MFC to begin with.

The reasons for COs’ failure to negotiate MFC pricing involved a failure to
leverage the Government’s purchasing power, as well as other negotiations
shortcomings. Specifically, COs --

      ¨   failed to target commercial pricing at a level commensurate with
          Government sales; indeed, in some cases the Government was by far
          the largest purchaser yet the CO failed to achieve even the better
          commercial pricing associated with customers who bought less than
          the Government;

      ¨   rather than quantifying the value of any differing terms and
          conditions of more favorable commercial pricing, COs rejected the
          better commercial pricing as a negotiation objective; and

      ¨   too readily accepted vendors’ unsubstantiated          or   inaccurate
          information regarding prices or pricing practices.

Preaward audits of the contracts we reviewed recommended cost avoidances of
$309.6 million. COs actually negotiated only $18.2 million -- or 5.9% -- of this
amount in savings through pricing improvements under these contracts. On
the photocopier contracts, one of three schedules reviewed, COs sustained only
$3.8 million -- or about 2% -- of $199 million in cost avoidances recommended.

Price Analysis

The review also examined the quality of price analyses COs were performing on
MAS contract extensions for 80 MAS contracts. Forty-four of the 80 contracts
reviewed were extended without a meaningful or vigorous price analysis. In
these 44 cases, we found no contract documentation indicating a CO had
asked for updated pricing information (or obtained a statement that pricing
had not changed since initial award), performed market research or requested
a preaward audit to evaluate the offer.




                                       3
________________________________________________________________

EXECUTIVE SUMMARY                             (Continued)
_____________________________________________________________________________

For example --

      ¨   written representations regarding whether a contractor’s pricing had
          changed since initial award were ineffective; in one instance a
          contractor simply noted that it “agree[d] to the modification”; in
          another instance, a contractor made a telephonic representation that
          its prices had not changed to the CO; and

      ¨   price analyses actually performed were not careful or vigorous; in
          one instance, price analyses for extensions on three different carpet
          contracts were embodied in an identical one page form document;
          the CO’s reasoning justifying the extension included that the
          contractor was agreeable to extending at current pricing.

We believe many of these MAS contracts were extended on a pro forma basis--
without a meaningful price analysis action to compare offered pricing to pricing
in the commercial market. It appears, from available documentation, that FSS
was more concerned with awarding contracts and keeping continuous contract
coverage, than with scrutinizing pricing.

Use of Preawards

In the final segment of our review, we examined the use of preaward audits to
evaluate offers for significant MAS contract actions. In FY 1990, 211 preaward
audits were performed on MAS proposals. As the MAS program has increased
significantly in terms of sales generated, the number of MAS preaward audits
requested by COs has dropped precipitously. In fiscal year 1996, the MAS
program generated $4.1 billion in sales. That same year, 94 preaward audits
were requested and performed on MAS proposals, covering $2,320,439,644 in
contract sales. In FY 2000, a year during which MAS sales amounted to $13.6
billion, COs requested just 23 preaward audits.          The audited preaward
contracts constituted $694,281,664 in sales -- approximately 5% of total MAS
contract sales for that fiscal year.

In our view, preaward audits are a valuable tool for COs to use in negotiating
MFC pricing on MAS contracts. Although GSA formally stated, in the context
of the 1997 Commercial Items GSAR rulemaking, that it would emphasize the
use of preawards, to date it has taken insufficient measures to integrate this
tool into the contracting process.




                                       4
________________________________________________________________

FINDINGS
_____________________________________________________________________________

Finding 1: The Federal Supply Service Is Not Consistently
Negotiating Most-Favored Customer Pricing

Our review indicates that FSS is not consistently negotiating most-favored
customer (MFC) prices on Multiple Award Schedule contracts, especially on the
information technology (IT) and photocopier schedules we reviewed. This
occurred because FSS does not insist on leveraging fully the Government's
aggregate buying power, and because it often fails to evaluate and quantify
differences between better commercial pricing and schedule terms and
conditions. We note this occurred despite contracting officers’ (COs) having
access to audit reports or audit information identifying better MFC pricing.1



                                     BACKGROUND

Program Basics

The Multiple Award Schedule (MAS) Program provides customer agencies with
a simplified process to purchase small quantities of commonly-used
commercial products and services at prices associated with volume buying. In
FY 2000, the MAS program generated over $13.6 billion in sales through
approximately 6,316 contracts covering 110 different commodity schedules, 2
with products ranging from office furniture to scientific equipment to IT
services.

MAS Negotiations and the Most-Favored Customer Negotiation Objective

Price negotiations under MAS contracts are based on vendors’ commercial
prices. Offerors are required to provide as key parts of the MAS proposal a list
of commercial products they offer GSA under each special item number (SIN),
their commercial price lists for the products, and information (via the GSA-
prescribed Commercial Sales Practices Format (CSPF)) regarding the prices or
discounts at which they sell the products commercially. GSA COs use this


1
  This review was based on MAS contracts negotiated in the 1998-99 time period, the last
substantial set of contracts subject to preaward audits. Appendix A describes in more detail
the specific objectives, scope and methodology of this review.
2 This excludes the schedules run by the Department of Veterans Affairs under a delegation

from GSA.



                                             5
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

commercial pricing and discount information to negotiate MFC pricing. 3 MFC
pricing represents fair and reasonable pricing for MAS contracts.4 GSA has
defined MFC pricing by regulation as pricing that is equal to the best prices an
offeror gives any commercial customer, terms and conditions considered, and
has committed itself to obtain this pricing. 48 C.F.R. § 538.270(a). MFC
pricing -- a touchstone of the MAS program -- is based on the fundamental
premise that the federal Government is one customer and that it therefore
should be entitled to prices that are commensurate with its collective or
aggregated purchasing power.5

The MFC pricing strategy, however, is flexible. It recognizes that in certain
instances valid reasons exist as to why the Government would not be entitled
to an offeror’s MFC pricing, including chiefly where the MFC commercial
pricing involves differing terms and conditions. For example, the General
Services Acquisition Regulation (GSAR) stipulates that an offeror’s MFC
commercial pricing may relate to customers who perform certain value-added
functions for the offeror that GSA is not able or willing to perform. 48 C.F.R. §
538.270(c). In such instances, negotiations policy dictates that the pricing
objective or target remain the same, but that key differences are quantified and
taken into account in negotiations.

GSA's Role in Negotiating MAS Pricing

In describing MAS ordering procedures, the Federal Acquisition Regulation
(FAR) states that GSA "has already determined the prices of items under
schedule contracts to be fair and reasonable." 48 C.F.R. § 8.404. This
regulatory pricing statement is echoed by GSA in its GSA FSS Owner’s Manual
(2000) literature to federal orderers marketing the MAS procurement vehicle.
In a pricing-related section of this manual on page 14, GSA states that it
“negotiates competitive contracts with commercial partners who give us the
same or better discounts than their best commercial customers.” In this


3 MAS contract awards do not involve head-to-head competition between vendors; instead the

GSA CO awards to multiple vendors, and bases contract pricing on the vendor’s prices to its
commercial customers.
4 Fair and reasonable prices are required to be obtained for all negotiated contracts. 48 C.F.R.

§ 15.4. As applied to MAS contracts, one type of negotiated contract, the fair and reasonable
mandate requires that COs obtain MFC pricing. 48 C.F.R. §§ 538.270, 538.271.
5 The Government Accounting Office (GAO) has also noted that GSA should target MFC pricing.

GAO, Multiple Award Schedule Contracting – Changes Needed in Negotiation Objectives and
Data Requirements, GAO/GGD 93-123 (1993). In addition, GAO has noted various pricing
problems within the MAS program. See Appendix B.



                                               6
________________________________________________________________

FINDINGS                  (Continued)
_____________________________________________________________________________

manner, GSA assures ordering agencies of good pricing, and encourages use of
MAS schedules.

         REVIEW SCOPE AND FINDINGS: PRICE NEGOTIATIONS
      UNDER TWO OF THREE MULTIPLE AWARD SCHEDULES DO NOT
      CONSISTENTLY ACHIEVE MOST FAVORED CUSTOMER PRICING

Our Office conducted a review of contract negotiations in 1998-1999 for three
MAS schedules, including contracts under the photocopier, information
technology (IT), and office and household furniture MAS schedules. This
review revealed that COs are not consistently pursuing and attaining MFC
pricing. Results vary by contract and schedule, with more problems appearing
on the IT and photocopier schedules, especially for large dollar or more
complex procurements. Consistent with the regulations, we categorized a
negotiation as having achieved MFC -- even if the price negotiated was not the
actual best discount or price -- as long as differing terms or conditions were
considered and valued by the CO.

We have reported the results of negotiations on a schedule-by-schedule basis
below.    We have also included two more detailed examples of contract
negotiations which illustrate our core finding that COs do not achieve MFC
pricing because they do not always take into account the negotiating leverage
provided by the buying power of the Government’s total estimated sales.

                          Results of Negotiations by Schedule

                                               Unable to
                                              Determine if       Total Sales
                    MFC         MFC Not       MFC Achieved          $ for           Total
                  Achieved      Achieved                          Contracts       Contracts
 Photocopier                                                     $1.4 Billion
 Contracts*         1½             9½                0                               11

 IT Contracts         4             6                4           $5.9 Billion        14
   Office                                                           $138.8
  Furniture           5             1                0              Million           6
  Contracts

Total Contracts     10½           16 ½               4           $7.4 Billion        31
*For one of the photocopier contract negotiations listed, the CO achieved MFC for one SIN, but
 did not achieve MFC for the other SIN.




                                              7
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

A.     Photocopier MAS Negotiations

Scope of Review

Our Office reviewed negotiations for 11 MAS contract extensions under
schedule FSC Group 36, Part IV for, among other products, the purchase of
photocopier machines, machine maintenance and the lease of machines. The
extensions were for the period October 1, 1998 through September 30, 2001.6
Total estimated purchases under the 11 GSA contracts for the extension
periods totaled approximately $1.4 billion. Historically, these 11 contracts
represented over 95% of sales under this schedule.

Our review included examining preaward audits of the proposals,7 records of
discussions with the COs regarding negotiations, and key negotiations
documents, including chiefly the Price Negotiation Memoranda (PNMs).8 It
should be noted that 10 of the 11 preaward audits of these photocopier
extensions were qualified because the vendors did not provide all of the
information necessary to ensure a full, unimpeded audit scope. Common
scope impairments encountered during the audits included refusals to provide
requested information, and provision of unsupported data, incomplete
information, or databases which did not allow exception pricing to be readily
detected. For example, one vendor who proposed to sell the Government copier
rentals and maintenance, did not provide for review any rental sales
transactions and only a limited number of maintenance sales transactions;
sales of these transactions represented about 47 percent of GSA transactions
for a calendar year being audited.


6 These extensions were the second set of extensions for these copier contracts. The original
contracts were awarded for the period 1993 to 1996. The contracts were extended once until
1998, and again for the period from October 1998 to September 2001.
7 Preaward audits review vendors’ MAS proposal pricing information to determine whether the

information is current, accurate and complete. The audits are conducted before award of a
contract, and are provided to COs for their use in negotiating prices during contract
negotiations. The audits typically recommend "cost avoidances" which indicate and quantify
areas where better pricing or terms could be negotiated. Auditors are also available to assist
the CO at negotiations, or to work with the CO on a consulting basis to evaluate vendor
positions or submissions during negotiations.
8 A PNM is the primary document by which a CO memorializes contract negotiations –

including pricing aspects. The FAR requires that PNMs be prepared and specifies their
contents, including a summary of the vendor’s proposal, a discussion of any field pricing
assistance or audit recommendations, and a statement of the Government’s negotiating
position. 48 C.F.R. § 15.406-3.



                                              8
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

Because the contracts expired September 30, 1998, FSS set a deadline for the
conclusion of negotiations and for contract award of August 31, 1998. Most of
the preaward audits were completed within a preagreed to 90 day period, and
were provided to the COs by August in advance of negotiations.9 Although
historically auditors have routinely been asked to participate in negotiations,
the auditors who performed these audits did not participate in negotiations,
nor were they generally asked by COs to assist on a consultative basis during
negotiations.

Copier Review Results: MFC Pricing Generally Not Achieved

For each of the 11 contract extensions, we analyzed negotiations to determine
whether the COs targeted and successfully negotiated MFC pricing for the top
two SINS under each contract.10 The COs targeted MFC pricing in all 11
negotiations, including one where the vendor’s initial proposal offered the
Government MFC up front. However, COs were only successful in actually
negotiating MFC pricing in two instances: in one negotiation for one of the two
top SINS examined, and in another negotiation where the vendor offered MFC
pricing at the start of negotiations.

Our review indicates that COs accepted various vendor-provided reasons for
why GSA was not entitled to MFC pricing on 10 copier contract negotiations.
These arguments generally related to differences between the MAS vehicle and
the better commercial pricing that -- in the vendors’ view -- meant that the
pricing was not comparable. When presented with these arguments, COs in
many cases abandoned the MFC commercial pricing objective, and instead
chose other less favorable commercial pricing to serve as the basis for price
negotiations. For the most part, the COs did not quantify or assign values to
the differing terms and conditions. 11




9 FSS advised the contractors of the proposed extension actions, and related preaward audits,

in approximately March 1998.
10 This report does not point out instances where a vendor failed to disclose its MFC pricing in

a proposal. For purposes of this discussion, we start with the MFC, whether it was properly
disclosed in the proposal or identified through the audit.
11 As we have stated, GSA’s price negotiations policy requires that MFC remain the negotiation

objective, but that COs quantify potential differences and take them into account. The policy
does not require the elimination of the commercial pricing as the basis for negotiations because
different terms and conditions may adhere. 48 C.F.R. § 538.270.



                                               9
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

The Preaward Audits

Preaward audits for each of the 11 negotiations reviewed and verified vendors’
proposals, and highlighted vendors’ MFC pricing for the COs’ use in
negotiations. These audits found that, for 9 of the proposals and for one SIN
on the 10th proposal, vendors provided other customers, including in particular
state or local government customers and national or major accounts, with
better pricing than they offered the Government on the top two SINs under the
MAS proposal. 12

Photocopier Negotiations

The following discussion isolates the reasons, based on our review, that caused
the COs to move from MFC pricing.             Because many of the extension
negotiations involved negotiations for more than one SIN, several reasons may
exist for each of the negotiations discussed here.

·   In 7 negotiations, the documents indicate that COs moved from the MFC
    objective because of vendor arguments that better commercial pricing
    (mostly to national account or state and local government customers)
    involved customers who purchased or were committed to purchase in
    quantities over the MAS maximum order amount.13 However, in most of
    these instances, federal agencies, over the MAS contract’s term, purchased
    quantities that far exceeded those of the customers receiving the more
    favorable pricing.      For price negotiations purposes, the paramount
    consideration should be the federal Government’s expected volume of sales
    compared to the volume of sales -- over the same time period -- of the more
    favored customer; the maximum order is relevant largely only to the pricing
    of individual federal orders.14




12 The top two SINS vary by contract, and can include copier purchase, copier maintenance,

and copier leasing.
13 This better pricing’s related terms and conditions were sometimes reflected in written

agreements.
14 The maximum order (MO) term is a MAS contract provision, typically set in terms of a dollar

amount, that designates the order size at which agencies considering making a MAS buy are
required to seek additional price discounts or reductions from vendors. 48 C.F.R. § 8.404.
Also, certain types of commercial pricing arrangements, involving definite quantity contracts
providing for single orders that are larger than the designated MAS MO level, are exempt from
the operation of the standard MAS price reduction clause. 48 C.F.R. § 552.238-75.



                                              10
________________________________________________________________

FINDINGS             (Continued)
_____________________________________________________________________________

·   In 5 negotiations, the vendor argued that better pricing both to states and to
    commercial (major account) customers was not comparable to a MAS
    contract because the better pricing involved more competition. In 4 of these
    negotiations, vendors characterized better pricing as involving single award
    state contracts where direct head-to-head competition was involved between
    suppliers to obtain the contract.       In the remaining negotiation, the
    competition involved was described in a very loose sense; the vendor argued
    that the better pricing was necessary to obtain the favored customers’
    business.    The vendor described this better pricing as arising from
    “competitive situations.” However, pricing under state contracts, even those
    that are awarded using head-to-head competition, are good market
    indicators, especially where the federal Government buys comparable
    amounts under the MAS vehicle. Also, better commercial pricing resulting
    from competition or “competitive situations” is exactly what GSA COs
    should be considering and negotiating for. The MAS program is premised
    on and driven by competitive forces in the commercial marketplace. The
    documents indicate that the CO accepted the vendors’ argument in each of
    the 5 negotiations.

·   In 4 negotiations, the documents indicate that general negotiation failures
    occurred. In one negotiation for one SIN, the CO generally failed to address
    or note any of the better MFC pricing the vendor had disclosed. In the
    second negotiation, the CO acknowledged in general terms certain better
    commercial pricing afforded a dealer, but did not negotiate for it citing
    various general functions that the dealer performed. The negotiations
    documents do not reflect that the CO assigned any values to or examined
    these functions as required by the MFC regulations.             In the third
    negotiation, a vendor argued that it did not offer certain better dealer MFC
    pricing in a “widespread” manner, and so would not extend it to the
    Government. The CO appeared not to negotiate for this better pricing on
    that basis. In the fourth negotiation, the CO -- instead of negotiating a
    better MAS basic discount based on the vendor’s disclosed MFC pricing --
    kept the same basic discount as previously negotiated and extracted a
    promise from the vendor that MAS customers, at the end of the year, would
    be guaranteed a specific discount at least as good as that of a particular
    favored state customer. However, that state customer, practically speaking,
    was receiving much better than the specific discount percentage designated
    by the CO because of constant promotional discounts it received in addition
    to the basic discount.       Because the vendor gave frequent additional
    promotional discounts, the percentage discount the CO used was too low to
    be effective as a price benchmark vis-à-vis the vendor’s other customers.



                                        11
________________________________________________________________

FINDINGS             (Continued)
_____________________________________________________________________________

·   In 3 negotiations, vendors argued -- and COs accepted -- that GSA was not
    entitled to MFC pricing because the better prices were determined using
    other types of evaluation or contracting methods and so were inherently
    non-comparable to MAS pricing. These different pricing methods often
    involved a per month or period charge for a combination of products
    including a copier together with supplies or consumables. We did not find
    evidence in any of these negotiations that the COs attempted to break down
    the components of the better commercial price in order to perform a
    comparison with proposed MAS pricing, nor were the auditors asked to
    perform such a comparison.

·   In 2 negotiations, we noted that the COs moved from the MFC objective
    when vendors argued that better commercial and state pricing was not
    comparable to MAS because the federal Government under MAS purchased
    in individual orders of one and two products, whereas the customers
    afforded better pricing purchased in larger order quantities. These vendors,
    impliedly or explicitly, argued that they incurred additional significant
    administrative or transactional costs in connection with the MAS orders,
    and could not afford to extend GSA the same pricing. In one case, the
    vendor specifically argued that it could not extend better state maintenance
    pricing to the federal Government under MAS, because the state
    administered the contract through a single office, whereas MAS
    maintenance sales would be expected to be spread throughout the United
    States. In this context, we note that auditors can do an analysis of the
    geographic concentration of MAS sales to determine whether these sales -–
    like state purchases -- are concentrated in a few discrete areas and so are
    comparable to state sales. In this instance, it does not appear that the CO
    asked the vendor about the concentration of MAS sales, nor did the CO ask
    the auditors to perform such an analysis.

·   In 2 negotiations, for both SINs, vendors argued -- and the COs accepted --
    that GSA was not comparable to MFC pricing extended to a national
    account customer and a state customer because those customers bought
    entire systems or product bundles, or because the customers bought copier
    machines together with maintenance and supplies.          The CO did not
    separate out the product groups in negotiations in order to conduct a price
    comparison with MAS products.




                                       12
________________________________________________________________

FINDINGS              (Continued)
_____________________________________________________________________________

·   In 1 negotiation, the CO moved from the MFC pricing objective -- a
    permanent up-front discount over the life of the contract -- in exchange for
    vendor commitments to extend temporary promotional pricing on a few
    models to GSA under the MAS vehicle for an additional limited two-month
    time period. An up-front discount, which extends to all models over the
    contract’s entire term, is generally more advantageous for the federal
    Government than temporary discounts on particular models.

·   In 1 negotiation, a vendor argued that antitrust laws restricting the vendor’s
    ability to dictate prices at which its dealers sold to end-user third parties
    somehow prevented the vendor from extending GSA similar better pricing.
    The CO appeared to have moved from the MFC objective based on this
    rationale. We note that the vendor’s ability to control its dealers’ pricing is
    irrelevant to the fact of the existence of better pricing.


            Case Study: Vendor A’s Copier Contract Negotiations

One of the 11 contract negotiations was conducted with Vendor A for a
proposal to extend its current GSA MAS contract for the purchase, lease, rental
and maintenance of copier equipment, as well as for related supplies. The
extension was for a 3-year period, and Vendor A was among the top 10
vendors, measured by estimated MAS sales, under the particular schedule.

The audit revealed that a variety of customers received better pricing than the
pricing offered to GSA. The audit also revealed that MFC pricing was to two
sets of Vendor A’s customers: certain state government customers and certain
commercial customers under a particular formal program. The following chart
illustrates better pricing on select copier models. It also reflects resulting
overpayments by Government customers over the term of the MAS contract
extension. Generally, Vendor A offered GSA pricing that was 20-89% higher
than its MFC pricing.

                                                         Estimated
                                Percentage Best         Overpayment
        GSA Sales               Price Is Lower       for GSA Purchases
          Rank       Model     Than GSA Price
            1        Model A         17.0%               $4,644,000
            5        Model B         29.6%               $5,019,120
            7        Model C         25.1%               $4,165,200
           13        Model D         47.2%               $3,864,240


                                         13
________________________________________________________________

FINDINGS               (Continued)
_____________________________________________________________________________

The CO discussed the majority of the better prices identified by the audit in
negotiations with Vendor A. However, the CO did not succeed in negotiating
this MFC pricing.15 Negotiations documents reflect that the CO accepted,
without corroboration or substantiation, various explanations as to why GSA
was not entitled to the better MFC pricing that was proffered by Vendor A.

First, as to the better state pricing, Vendor A argued that such pricing was not
comparable to GSA because it involved single award contracts to one supplier
awarded using direct competition, or because state contracts were priced using
a total cost approach evaluation method which folded in supply prices to the
price of the copier equipment itself. The CO appeared to accept this reasoning,
and did not ask the auditor, for example, to attempt a comparison of the better
state combined pricing to GSA pricing.

As to the significantly better commercial pricing involving Vendor A’s formal
sales program, Vendor A argued that the pricing was not comparable to GSA as
it involved “dollar thresholds” that exceeded the GSA contract’s maximum
order. The audit disclosed that the dollar thresholds were not binding and
Vendor A, by its own admission, extended the pricing “without the need for a
firm commitment.” In addition, the audit noted that the federal Government’s
purchase volume under the MAS contract far exceeded that of the customers
receiving better pricing under this program.

If the CO were to have negotiated MFC pricing as identified in the audit, the
resulting cost savings would have amounted to approximately 15% of the total
dollars spent under the contract during the three-year extension period.
Contracting personnel actually negotiated improved prices over Vendor A’s
proposal amounting to only 1% of the cost avoidances recommended. We note
that during negotiations for Vendor A’s base contract in 1993, contracting
officials sustained 72% of the amount recommended through negotiating better
pricing.

Overpricing Impact

The failure to negotiate MFC pricing on the photocopier contracts resulted in
Government purchasers paying higher prices for the products and services.


15 FSS management officials set a one-week deadline for conducting negotiations for this
contract extension. In comparison, negotiations for this vendor’s base contract in 1993 took
over three months for a single product line.



                                             14
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

Example #1: On a best-selling model under the GSA contract, one major
vendor offered commercial customers pricing on copier purchases that was
17% lower than the GSA negotiated price. This equated to a GSA price that
was $1,720 more than the price the vendor gave these commercial customers
on each machine. Over the 3-year contract extension period, the Government
will have paid $4.6 million more for this product than a commercial
customer.16

Example #2: Another major vendor offered state and local customers a price
for purchase of a copier system (copier together with an accessory) that was
$5,582 less than its price to GSA. Over only 1 year, the Government will have
paid $3.896 million dollars more for purchases of this copier system than the
favored state customer.

Had the COs on all the copier contract negotiations succeeded in negotiating
MFC pricing -- as identified in each related audit report -- better pricing would
have resulted in $199 million in costs saved on contract purchases.17 COs
actually sustained or achieved only $3.8 million of $199 million -- or slightly
less than 2% -- by making price improvements through negotiations under the
contracts. In contrast, for FY 90 through FY 97 on contracts under the copier
schedules, COs sustained -- or actually saved -- 71.4% of the amounts
recommended by preaward audits through negotiating better pricing. Nothing
has changed in the audit approach or methodology that would account for the
difference in rates of cost avoidances sustained between the prior and more
recent contracts.




16 This overpayment figure assumes the Government would continue to purchase the machine
at the same rate during the 3-year extension period as it had purchased over a 5-month period
under the base contract.
17 This savings number is calculated using the estimated sales expected under the GSA

contracts for the three-year extension period.



                                             15
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

              Photocopier Contracts -- Comparison of Negotiated
                    Savings for Current vs. Prior Contracts

                                                                               PERCENTAGE
             TOTAL ESTIMATED             AUDIT               ACTUAL              OF COST
                CONTRACT             RECOMMENDED           NEGOTIATED         AVOIDANCE CO
                  VALUE                  COST                SAVINGS          SUSTAINED AT
                                       AVOIDANCE                              NEGOTIATIONS
FY 90-97
Contracts     $1,998,045,139         $186,651,408         $133,291,445           71.4 %


FY 98-99      $1,400,970,622         $ 198,963,281         $3,819,407            1.91 %
Contracts


B.     Information Technology MAS Contract Negotiations

Scope of Review

Our Office reviewed 14 contract actions under FSC Group 70, for the purchase
of various IT items, including software, hardware, and IT services. The
estimated sales under these contracts totaled more than $5.9 billion. The
negotiations took place generally in late 1998. We reviewed preaward audits of
these contract actions, 18 contract documentation, including mainly the PNM,
and any records of discussions with the COs regarding the results of
negotiations. We had attended and assisted in 2 sets of negotiations at the
COs’ request. Although auditors tried to adhere to the 30 day agency-set
deadline for conducting preaward audits, audits generally took significantly
longer to complete in large part because vendors were resistant to providing
their pricing practices in full, or because vendor-provided data was unusable.
In all the contract actions, the auditors provided the COs with audit findings
before the start of negotiations.

18
  We had originally planned to audit 16 contract actions, but were unable to do so because two
vendors refused to provide GSA with their pricing information. In one instance, an IT services
vendor offered to provide GSA only with commercial pricing information from expired contracts.
The contract involved estimated sales of $71 million. In the second case, on a proposed
contract with expected sales of well over $100 million, another IT services vendor refused to
provide the GSA CO any commercial pricing information. In both cases, we understand FSS
ultimately awarded contracts to the vendors; we do not know whether FSS eventually received
adequate pricing information from the two vendors.



                                              16
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

IT Extensions Review Results: MFC Pricing Not Negotiated in Most Instances

The preaward audits generally found better pricing to a variety of customers,
including commercial customers, state and local governments, and other non-
MAS federal customers, on the 14 contracts audited.

Of the 14 contract actions reviewed, the CO achieved MFC pricing, or pricing
that appeared substantially equivalent to MFC pricing, in 4 of these actions.19
In 6 contract actions, we determined that MFC was not achieved by the COs.
In the remaining 4 negotiations, we could not determine whether MFC was
achieved because vendors provided only limited commercial pricing information
reflecting their pricing to commercial customers.20 The following discussion
describes each of the contract actions, with emphasis on the results of
negotiations.21
                                MFC Achieved

On 4 of 14 contract actions, the CO negotiated MFC pricing, or pricing
substantially as favorable as MFC pricing.

·    In the first contract action, which involved a 5-year contract extension for IT
     services, the vendor offered MFC pricing, and the pricing was verified as
     being MFC by the audit. The CO accepted this pricing as the GSA price.
     There were no significant audit impairments in the audit of this vendor’s
     proposal. That is, the audit examined the full range of the vendor’s
     commercial pricing.

·    In the second negotiation, a CO was negotiating pricing for a 5-year
     extension on a contract for the sale of software and other items. The audit
     found that the vendor/reseller gave a single state customer on average a
     12% better discount than it was proposing to give GSA. In this connection,
     the audit found that federal Government MAS users historically purchased


19 On 1 of these 4 negotiations, the vendor offered MFC pricing up front.
20 More minor audit impairments occurred in other contract actions, including for those
negotiations which we categorized as achieving MFC.
21 We categorized a negotiation as having achieved MFC – even if the price was not the actual

best discount or price – as long as differing terms or conditions were considered and valued by
the CO. Also, in contrast to the furniture and copier contract reviews, we were unable to
determine whether the COs targeted MFC pricing under the IT negotiations. For these
contracts, contract documentation was generally weaker and, in many cases, did not reflect
specific prenegotiation objectives.



                                              17
________________________________________________________________

FINDINGS               (Continued)
_____________________________________________________________________________

     as much as the MFC state customer. The company, however, argued that it
     could not extend this state discount to GSA because the manufacturer
     dictated the better state price, no other customer received that discount,
     and the manufacturer represented that it would not extend other customers
     that discount. Although the CO did not negotiate the state price, he was
     able to negotiate a significantly better GSA price, which was equal to any
     other of the vendor’s most-favored customers.

·    A third negotiation involved a proposal for a 5-year base contract for the
     sale of laptops to the federal Government under the MAS vehicle. The audit
     found that the vendor gave its dealers better prices than GSA, and that the
     magnitude of the better markups was unjustified in part. That is, the audit
     found that several of the claimed dealer functions -- mostly having to do
     with additional administrative costs to make MAS-specific sales -- were not
     actual expenses incurred. The CO succeeded in negotiating a significant
     reduction in this markup almost to the MFC-point recommended by the
     audit.

·    The fourth negotiation also succeeded in achieving MFC pricing. The
     contract action was for a 3-year extension of a contract to sell GSA IT
     hardware and related maintenance. The audit found that the pricing
     proposal was accurate, and that the GSA pricing was MFC, considering
     terms and conditions.22 Per the audit’s recommendation, the GSA CO
     realigned the basis of award customer from one reseller to a group of 5
     resellers that had become over time the MFC customers.

                  Unable to Determine Whether MFC Achieved

In our review, we were not able to determine whether the CO achieved MFC
pricing in 4 of the 14 MAS negotiations. This was due in large part to the
vendors’ provision of limited or unreliable commercial pricing information to
GSA during negotiations.

·    The first negotiation involved a proposal to extend a contract, chiefly for the
     purchase of software, for a 5-year period. The audit concluded that GSA
     pricing was fair and reasonable as compared to a limited number - 2% - of
     other similar software sales made by the vendor. Ninety-eight percent of the

22 A price differential existed between the better-priced resellers and GSA that represented
reseller functions, such as marketing activities and technical support -- all performed with
dedicated staff.



                                             18
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

    vendor’s sales, however, were for a different type of software license not
    offered under the GSA contract. The audit recommended that GSA consider
    adding this more commercial type of license. The CO attempted to add the
    more commercial license, but was unsuccessful. The CO merely extended
    the contract, with its then existing products, at those terms and conditions.

·   In the second contract action, the CO was negotiating a 33-month extension
    of a MAS contract for the sale of IT hardware and software. The audit found
    that the company gave better pricing to various state and local government
    customers that averaged 5% better than GSA’s. We were not able to
    determine the quality of the pricing actually negotiated for two reasons.
    First, the vendor gave GSA only limited pricing information relating to its
    dealers and distributors; it failed to provide information on actual rebates it
    paid to these customers. Second, instead of negotiating pricing for the
    extension at that time, the CO extended the contract at existing pricing for a
    period of 11 months. After these 11 months, the CO negotiated a new
    contract.23 We did not review the later negotiations; nor was an audit
    performed of the vendor’s proposal at that later time.

·   The third contract action was a negotiation for a 3-year contract extension
    for predominantly IT consulting services. The vendor’s refusal to provide
    complete and reliable pricing information prevented the audit from
    evaluating the offered pricing. The vendor did not provide any fundamental
    supporting documentation, such as payroll registers, to allow the auditors
    to evaluate its commercial service rates and to compare them to the GSA-
    offered rates. The vendor also provided commercial rate information only on
    what it represented to be its top 24 customers’ rates, without any assurance
    that the information in fact related to its top 24 customers. Ultimately, the
    CO could not make a price reasonableness analysis, and did not award the
    contract at that time.24




23 We have conflicting information from FSS regarding the nature of this later contract action.

One CO stated that a new contract was negotiated. Another CO noted that several of the
vendor’s contracts were combined at that later date through a modification.
24 About four months later, the CO conducted a price analysis using a prior labor rate analysis

done of the vendor by the Defense Contract Audit Agency. The CO also compared the GSA-
offered pricing to Blanket Purchase Agreement (BPA) pricing the vendor had entered into. The
CO then awarded the contract. We did not review that later negotiation and contract award to
determine the quality of the pricing achieved. BPAs are agreements typically negotiated with
vendors under existing MAS contracts for large, definite quantities of items or services.



                                              19
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

·    The fourth contract action involved a 3-year extension of a contract for the
     purchase of IT hardware and other items. The audit found, among other
     things, many instances of nonstandard pricing, constituting about 16% of
     the vendor’s total sales. The audit recommended that the CO increase the
     GSA contract’s basic discount, include state and local customers in the
     basis of award category, and establish a firm threshold for nonstandard
     discounts which would automatically trigger the price reduction clause.25
     We could not determine whether the CO realigned the basis of award
     customer or renegotiated pricing, largely because the PNM for this contract
     was lost. We also note that the vendor refused to provide any pricing
     information related to its sales to federal resellers and other federal
     agencies.

                                    MFC Not Achieved

In 6 of the 14 negotiations we reviewed, we were able to determine that COs
were not generally successful in achieving MFC pricing. We have described the
negotiations below, with emphasis on the pricing results.

·    The first negotiation involved a review of a proposal for a 5-year extension of
     a contract for the sale of IT hardware and other items. The audit found that
     the vendor generally gave its best commercial customers an average
     discount that was significantly better than it gave GSA. Specifically, 25% of
     the company’s sales to its top commercial customers were at discounts of
     25% or higher; GSA’s basic up-front discount was 7.5%. Despite the fact
     that federal Government MAS users in the previous year purchased more
     products from the vendor than these top commercial customers combined,
     the CO was unable to negotiate the same up-front discount given to these
     commercial customers. This appears to have been in part because the CO
     did not view MAS users as being one customer, and so did not leverage the
     total MAS contract sales.       The CO negotiated no significant up-front
     improved basic discount, and instead negotiated a feature involving special
     pricing on a limited set of product configurations.




25The basis of award customer represents the commercial customer that GSA will align itself
with for purposes of negotiating pricing, and defines the price reductions that a vendor will be
obligated to extend to the Government during the contract’s term.



                                               20
________________________________________________________________

FINDINGS                 (Continued)
_____________________________________________________________________________

·    The second contract action involved a negotiation for a 3-year extension of a
     contract for the sale of IT hardware and other items. The vendor was a
     dealer and a subsidiary of a major company, and sold exclusively to the
     Government. The vendor did not provide commercial sales pricing data for
     review (it had solely Government sales), and did not provide any pricing
     information from its manufacturers for purposes of the CO performing a
     price reasonableness analysis.26 Based on the very limited information
     available, the audit was able to determine that the vendor charged other
     non-MAS Government customers 2% less markup on a variety of purchases.
     Overall, the audit recommended that the CO not extend the contract,
     because the vendor’s pricing information was insufficient for negotiations.
     The CO appears to have done a general market survey to justify awarding
     the vendor the extension at the preexisting prices; there is no evidence that
     the CO tried to negotiate better markups for proposed prices. The CO
     argued that attempting to negotiate a better markup for GSA would “stifle
     competition” because it would somehow discourage the vendor’s
     salespersons from extending better pricing on specific non-MAS Government
     orders.

·    The third negotiation involved a proposal for a 3-year extension for a
     contract for the sale of hardware and software. The audit found that the
     vendor gave better pricing -- by on average 6% -- to its non-MAS
     Government customers and to Government resellers on the top 10 GSA
     selling products. The CO extended the contract at the then current pricing
     without negotiating better pricing. The CO instead used GSA Advantage
     and compared GSA offered pricing to other vendors’ MAS pricing in order to
     conduct a price reasonableness analysis and to make award.

·    Under the fourth contract, the CO negotiated pricing on a proposal for a 5-
     year base contract for the sale of software, training services, and IT services.
     The audit found that the vendor gave better pricing to national account end-
     users of 8 to 12.5%, depending on the product or service. On two of the
     three SINS examined, the CO failed to achieve MFC, although she negotiated
     pricing that was better than initially offered. On the training services SIN,27

26 The vendor subsidiary argued that it had no commercial sales, and that it was not obligated
to provide pricing relating to commercial sales made by its affiliates or its parent, although this
was arguably the only existing meaningful pricing information. GSA regulations provide that if
a vendor is a dealer without commercial sales to the public, the vendor must arrange for its
manufacturers to provide its pricing information to GSA so a price reasonableness
determination can be made. 48 C.F.R. § 515.408(5).
27 Sales under this SIN represented only 7.9% of estimated sales under the contract.




                                                21
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

     it appears the CO was able to substantially achieve MFC -- although she
     was not able to negotiate the best absolute commercial discount. The better
     commercial training pricing appears to have required the commercial
     customer to prepay amounts of over $1 million. GSA contract customers
     cannot prepay for such services.

·    The fifth contract involved a 3-year extension for the sale of IT services. The
     vendor only supplied GSA with pricing information related to certain other
     Government contracts. It did not provide GSA with its Government and
     commercial contract pricing arising from certain cost-plus type contracts;
     this missing information constituted approximately 58% of its total sales.
     Nonetheless, the audit found that for one labor category the vendor gave
     non-MAS Government customers from $3 to $30 per hour better rates than
     it gave GSA under the MAS contract, and that it improperly included a cost
     component in another of its labor categories. The CO negotiated only a $16
     dollar improvement in the first labor category, and noted, as justification for
     not achieving the full $30 improvement, the vendor’s unsubstantiated
     argument that the $30 better price recommended by the audit was an
     average differential, not an “actual amount.” The CO was, however, able to
     negotiate out the total value of the improper cost component on the second
     labor rate.

·    In the sixth contract action, a 3½ year extension for IT hardware items and
     IT services, the vendor gave better pricing on hardware items to commercial
     customers on 10 of the top 15 models which sold most under the GSA
     contract.     For IT services, the vendor gave other federal agencies
     significantly lower rates than what they proposed for GSA under the MAS.
     Although the CO was able to negotiate some improvements in the prices
     offered for hardware items, the CO did not negotiate the better commercial
     customer prices. For IT services, the CO was not able to negotiate the better
     federal Government pricing.28




28The vendor had asserted that the better federal pricing for IT services was not comparable to
GSA, because GSA required vendor employees to perform any ordered work while work under
the better-priced federal contracts could be performed by cheaper non-vendor labor.



                                              22
________________________________________________________________

FINDINGS               (Continued)
_____________________________________________________________________________

               Case Study: Vendor X’s IT Contract Negotiations


One of the 14 IT contract negotiations was conducted with Vendor X. The
action was for a 5-year extension for, among other items, IT hardware. MAS
sales under the extension were estimated to exceed hundreds of millions of
dollars. Vendor X offered GSA a 7.5% basic discount -- the same basic
discount on its base contract -- on the principal group of hardware products
under the contract.   The audit found that Vendor X’s pricing to the audit-
identified top commercial end-user customers was significantly better than
what was offered GSA. Twenty-five percent of the sales to this top customer
class were made at a discount of 25% or higher. GSA’s estimated sales under
the contract exceeded those of the top commercial end-user customers
combined.

During negotiations, Vendor X argued that it could not improve its basic
discount for a variety of generalized reasons, including that selling to federal
customers involved competition, that federal orderers bought “less rich
configurations,” that Vendor X incurred more internal costs to sell to and
manage federal orders, and that it would be difficult, if not impossible, to sell
through small business federal resellers (and thus support small business
programs) if Vendor X was forced to increase the basic GSA discount.

The CO accepted the same basic discount as offered – 7.5%. In addition to this
basic discount, the CO negotiated a promotional discount on certain
upgradable configurations. For these promotional systems, if the savings
yielded from sales of these systems did not equal 3% of total non-BPA29 MAS
sales over the course of a year, Vendor X would provide the Government with
coupons representing the difference. Finally, Vendor X also agreed that at
year’s end it would ensure that the margin it made on MAS sales would be
comparable to the margin it made on sales to a set of customers it represented
were its top customers who received its best pricing. The vendor agreed to
rebate any difference in cash to GSA.30


29 Blanket purchase agreements (BPAs) are typically negotiated by an individual agency and a
MAS vendor for large quantities of fixed-amounts of items or services. See footnote 24.
30For the last two years, Vendor X has represented to GSA that it owed GSA nothing on

account of the year end margin comparison feature. To date, GSA has not chosen to verify
these assertions.




                                             23
________________________________________________________________

FINDINGS             (Continued)
_____________________________________________________________________________

In our view, the CO did not target or negotiate MFC on this extension.
Generally, the reason appeared to be in part GSA’s failure to insist on
leveraging its collective purchasing power.

We could not calculate the cost avoidances achieved by the contracting officials
in this negotiation because the contracting officials did not negotiate any
improved up-front discount; as noted above, the officials instead negotiated a
coupon feature (relating to the promotional systems) and a rebate feature. Any
cost savings calculations achieved from these features would be dependent on
future commercial and GSA sales.

Overpricing Impact

The failure to negotiate MFC pricing on these IT contracts resulted in MAS
users paying higher prices for the products and services.

Example #1: One major distributor of IT products sold its top 10 GSA-selling
models to commercial customers at an average price that was 6% better than
the price at which it sold under the MAS contract. Over the contract
extension’s term, the Government will have paid $39,900,000 more for these
products.

Example #2: Another vendor, an IT services provider, was found to be
providing a certain technical skill category it offered to GSA to its non-MAS
federal Government customers at a rate per hour that was from $3-$30 better
than the rate it gave GSA under the MAS vehicle. Over the contract extension
term, the Government will have paid over $800,000 more for the services
provided.

We were able to calculate cost avoidances actually sustained by COs in
negotiations for only 6 of the 14 IT contracts reviewed. For the remainder,
PNMs and other relevant documentation were not available. The audits
recommended cost avoidances of $98.7 million for these 6 contracts. The total
cost avoidances actually achieved by COs during negotiations on these 6
contracts amounted to about $10.8 million -- or approximately 10.9% of the
amount recommended. In contrast, for FY 90 through FY 97, COs sustained -–
or achieved -- 49.7% of cost avoidances recommended in preawards performed
of IT contracts through negotiating better pricing. Again, we do not know of
any variables relating to audit methodology or approach which could account
for the significant difference in the costs sustained rates between the prior and
more recent IT contracts.



                                       24
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

     Negotiated Savings Comparison for Prior vs. Current IT Contracts31

                                                                               PERCENTAGE
              TOTAL ESTIMATED            AUDIT               ACTUAL              OF COST
                 CONTRACT            RECOMMENDED           NEGOTIATED         AVOIDANCE CO
                   VALUE            COST AVOIDANCE           SAVINGS          SUSTAINED AT
                                                                              NEGOTIATIONS

FY 90-97      $ 1,386,689,052        $187,329,553         $ 93,161,992           49.7 %
Contracts

FY 98-99      $ 2,084,000,000         $ 98,700,000        $ 10,780,000            10.9%
Contracts


C.     Office Furniture MAS Contract Negotiations

Scope of Review

Our Office reviewed 6 contract negotiations under FSC Groups 71 I H and
71 III J for the purchase of office and household furniture, filing cabinets, and
office storage units. Five of the contract actions were five-year extensions and
one action was for a new basic contract. As part of our review, we examined
preaward audits of the proposals, key negotiations documents including the
PNM, and any records of discussions with the COs regarding the results of
negotiations.32 The total estimated sales under the MAS contracts for the
periods of the contract actions reviewed totaled $138,831,736. Pursuant to
agency policy, we generally performed these audits within 30 days. The audits
were performed during the period from May 1998 through September 1998.




31 The chart statistics for FY 98-99 contracts encompass only 6 of the 14 contracts we

reviewed. We were not able to obtain cost avoidances sustained figures for the remaining
contracts.
32 Our auditors were not asked to participate in or assist at negotiations, although they were

consulted with at some points.



                                              25
________________________________________________________________

FINDINGS               (Continued)
_____________________________________________________________________________

The Preaward Audits

Our Office performed preaward audits of the proposals to verify the pricing
disclosures and to determine MFC pricing. The audits found that one of the
vendors offered GSA MFC pricing up front in their initial proposal. On the
other 5 proposals, the audits found that vendors gave better pricing
(constituting MFC pricing) to other customers.

Furniture Review Results: MFC Pricing Largely Achieved

For the five furniture contracts reviewed where MFC was not offered up front,
the CO in each negotiation set MFC pricing -- as set out by the audit -- as the
negotiation objective. COs succeeded in negotiating the best discount or MFC
price on 4 of the 5 contracts. The following discussion describes each of the 5
furniture contract negotiations, with emphasis on the results of negotiations.33

                                     MFC Achieved

·    In the first negotiation, the audit found that the vendor, a furniture
     manufacturer, gave its commercial customers 10% discounts on product
     purchases if the customers bought at least $100,000 worth of product over
     a year. GSA did not get an equivalent discount on product orders under the
     existing contract, nor was it offered this discount in negotiations for the new
     follow-on contract. The CO was able to negotiate an equivalent discount for
     products under the new follow-on contract.34

·    In the second negotiation, the audit disclosed that the vendor gave three
     commercial customers a 2% rebate on furniture purchases. In addition, the
     audit found that one of these customers got an additional concession -- an
     incentive rebate -- of up to 2.5%. The vendor did not offer GSA these
     rebates. In negotiations, the CO was able to negotiate equivalent discounts
     for products under the schedule contract.

·    In the third negotiation, a company argued that GSA was not entitled to
     better pricing (2.7% better than the GSA offer) offered a single reseller
     customer because that reseller sold only to Government customers and


33We did not describe the one negotiation where MFC was offered to begin with.
34The audit also determined that the company gave an additional 4% rebate to its customers.
The company represented that it had discontinued this 4% rebate. Recently, we learned
through a self-reported price reduction by the company that it had reinstated the 4% rebate.



                                             26
________________________________________________________________

FINDINGS             (Continued)
_____________________________________________________________________________

    added certain services – including design – to the products they purchased
    from the offeror. In addition, the company argued that this better customer
    passed on any better discount differential to the Government end-user it
    serviced. The CO consulted with the auditor to determine whether the
    vendor’s claims were generally substantiated by the audit.          The CO
    subsequently accepted these arguments.

·   In the fourth negotiation, when a CO brought the audit-identified better
    dealer pricing to the vendor’s attention, the vendor did not dispute these
    better commercial prices, but instead assured the CO that it would no
    longer extend such pricing in the future. Specifically, the company
    represented that it had put in place a system to ensure that such better
    pricing would not occur in the future. The CO accepted this assurance, and
    did not negotiate the better pricing, although the CO did succeed in
    negotiating a 1% basic discount better than the vendor initially offered.
    Assuming the company’s system to stop the aberrant better pricing was
    effective, GSA would have succeeded, for the most part, in negotiating MFC.

                              MFC Not Achieved

In this negotiation, a vendor argued that better pricing to resellers detected by
an audit was not effectively better because the vendor sold to these customers
from a higher–priced price list. The CO accepted this proposition, and failed to
negotiate a better discount. Meaningful CO follow up with the auditor would
have shown that the pricing was in fact better pricing, because the auditor had
compared net pricing and had taken the differing price lists into account.

Overpricing Impact

The failure to negotiate MFC pricing on one furniture contract resulted in
Government purchasers paying higher prices for the covered products. For
this contract, the audit found that the vendor gave a commercial customer
pricing on furniture products that was on average 8.6% better than they offered
GSA.     Over the term of the extension, the Government will have paid
approximately $6.4 million more for these products than the commercial
customer. The total cost avoidances recommended by the audit reports for all
6 furniture contracts were $12,859,578. The total cost avoidances actually
obtained by the COs through negotiating pricing improvements were
$3,631,173, or 28% of the amount recommended. We do not have sufficient
information to compare this rate to historical costs sustained by COs on prior
negotiations for contracts on the same schedules.



                                       27
________________________________________________________________

FINDINGS               (Continued)
_____________________________________________________________________________

Finding 2: Many Multiple Award Schedule Contract Extensions
Are Accomplished Without Adequate Price Analysis

Our Office reviewed 80 MAS contract extensions to determine the quality of
price analysis performed by the COs. Out of the 80 extensions reviewed, we
determined that 44 involved inadequate price analyses.

Various legal authorities and GSA guidance mandate that COs conduct price
analyses on contract actions. Conducting vigorous price analyses on MAS
extensions is particularly crucial given that commercial and market pricing
likely will have changed significantly during the multiyear duration of a MAS
contract.

                                    BACKGROUND

Price Analysis Requirements

GSA extended the terms of many contracts through modifications in the 1996-
2000 time period.35 For example, in 1998 through early 1999, GSA extended
approximately 1,100 MAS contracts under the IT schedules in this manner.

A variety of regulatory and other provisions address the price analysis that
should be performed when MAS contracts are extended through modifications
or options exercise. These authorities, as a general matter, require that the CO
at the time of extension determine that prices are fair and reasonable. This
mandate, as applied to the MAS program, requires that MFC pricing should be
preserved or achieved.

First, the FAR mandates that COs determine that prices are fair and
reasonable on negotiated contract actions, such as MAS, by conducting price
analyses. 48 C.F.R. § 15.404-1(a). Appropriate methods include conducting
market surveys, conducting market research, comparing pricing to other offers,
and soliciting additional pricing information. 48 C.F.R. § 15.404-1(b)(2).36
With respect to option extensions specifically, the FAR, at 48 C.F.R. § 17.207),
echoes the general requirement that pricing is one of the chief factors to be


35 FSS was not able to determine the exact number of extensions occurring during this time
period.
36 The FAR also contains accompanying related documentation requirements for these

analyses. 48 C.F.R. § 15.406-3.



                                            28
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

considered when determining whether to exercise an option. The FAR also
suggests that field pricing assistance, including audits, is appropriate where
the buying activity has inadequate information to determine a fair and
reasonable price. 48 C.F.R. § 15.404-2.

The GSAR also speaks to price reasonableness on MAS extension actions. The
GSAR, at 48 C.F.R. § 517.207(c), provides specific guidance on option
extensions, specifically noting the CO’s duty to determine fair and reasonable
pricing. As we noted earlier in the report, the fair and reasonable mandate, in
the context of MAS contracts, connotes obtaining MFC pricing.

A variety of GSA guidance documents specifically address price analyses on
MAS extensions, and the role of preaward pricing audits in the process. First,
GSA guidance to COs notes the importance of making a fair and reasonable
determination for MAS extensions. Specifically, GSA guidance notes that
option pricing is not automatically considered fair and reasonable -- at the time
of option exercise -- and directs COs to evaluate contract pricing and conduct a
price analysis to ensure that the option prices “continue to allow Government
customers to receive the best price available to the contractor’s most favored
customers.” This guidance provides that, among other methods, the CO
should conduct market research or a market survey and document the file to
show that option pricing is fair and reasonable.37 The guidance also requires
that a contract option price analysis memorandum and negotiation
memorandum be prepared.           Additional GSA guidance also notes that COs
should consider obtaining preaward audits to help in determining price
reasonableness for major modifications, including large dollar extensions.

In accordance with these established policies, a third set of recently-issued
GSA guidance, relating to Evergreen contracting, notes that before extending, a
CO must get a statement from the vendor that its commercial pricing policies
and the basis of award customer remain the same, or in the absence of such a
statement, obtain updated pricing information. In addition to obtaining this
statement or the updated pricing information, the Evergreen guidance
authorizes the CO to conduct a market survey, and to request preaward audits
-- especially on older contracts or large contract extensions (those where the
estimated sales over the 5-year extension period are expected to be over $25
million).

37 This guidance provides that, at a minimum, the file must include “documentation of the
analysis performed and rationale used to determine that exercise of the option was in the best
interest of the Government.”



                                              29
________________________________________________________________

FINDINGS                      (Continued)
_____________________________________________________________________________

      REVIEW SCOPE AND FINDINGS: EXTENSIONS ACCOMPLISHED
        WITH VERY LITTLE NEGOTIATION OR PRICE ANALYSIS

In order to determine the extent and nature of the price analysis performed in
connection with each contract extension action, we reviewed contract files and,
in some cases, discussed the extension actions with the COs. We concluded
that an extension action was inadequate -- from a price analysis perspective --
if from our review it appeared that the CO did not perform at least one of the
following actions: conduct a documented market survey; request updated
pricing information from the vendor or obtain an effective, clear contractor
statement that its pricing information as disclosed at award had not changed;
or request a preaward audit. Where a file did not include documentation
reflecting any of these price analysis actions, we categorized the extension as
inadequate.

COs performed inadequate price analyses on a significant number of the
contract extensions we reviewed. Of the 80 extensions we reviewed, 44 were
effected with an inadequate price analysis; only 36 included documentation
reflecting an adequate price analysis. In most of the latter contract actions
classified as adequate, the files reflect that the price analysis was based solely
on a contractor statement that its pricing information as disclosed at award
had not changed. A few of the extensions also included preaward audits of the
contract actions.



                        RESULTS OF CONTRACT FILE REVIEW: ADEQUACY
                                    OF PRICE ANALYSIS

                                                          Inadequate Price Analysis (44
                                                          Files)
              Adequat e Price                             Adequate Price Analysis (36
             Analysis (36 Files)
                    45%
                                                          Files)



                                                  Inadequat e Price
                                                 Analysis (44 Files)
                                                        55%




                                            30
________________________________________________________________

FINDINGS             (Continued)
_____________________________________________________________________________

Examples of Ineffective Vendor Statements Regarding Price Changes

In many instances where we found an inadequate price analysis, the contractor
statements regarding commercial pricing that were obtained were unclear or
ineffective. The GSA COs accepted these statements and awarded the
extensions.    Specifically, vendors are required to provide the CO with a
statement that their commercial pricing remains as previously disclosed and
that the basis of award customer that GSA is aligned with has remained
unchanged. If a vendor’s commercial pricing has changed, the vendor should
provide new pricing information.      In a significant number of contract
extensions we reviewed, these statements were deficient. In some cases, the
statements were unclear in that they did not refer to changes in the vendors’
commercial pricing but rather to the vendors’ pricing and terms extended to
GSA. In others, the vendor statements failed to make any representation
regarding changes in their commercial pricing, noting rather that the vendor
“accepted” the modification extending the MAS contract term. We note that
GSA does not have readily-available model language for COs to use in
preparing these extension modifications.

Example #1: One vendor who sold scientific equipment to GSA provided a
letter responding to GSA’s transmission of a modification request; the vendor
failed to make any representation in the letter about changes in their
commercial pricing. In the summary letter, the vendor noted only that it
“agree[d] to the modification” to extend the contract.

Example #2: A carpet vendor’s MAS contract was extended when a CO
obtained a telephonic representation from the vendor’s representative that its
“business practices have not changed since initial negotiations.”

Examples of Ineffective or Undocumented Price Reasonableness Analyses

Many of the contract extensions we reviewed had little or no information in the
contract file that reflected COs’ performance of a price analysis.

·   For example, under one schedule for carpet, we found three extension
    actions where the rationale for extending each one was documented with an
    identical one-page form document. There was no additional extension-
    related documentation, such as a contractor statement or market survey,
    reflecting a price analysis in the contract file.   The one-page document,
    furthermore, generally noted that the vendor was agreeable to extending its
    GSA contracts at the current pricing it offers. The document went on to



                                       31
________________________________________________________________

FINDINGS             (Continued)
_____________________________________________________________________________

    note that no price negotiation would be attempted because GSA sales have
    not exceeded the estimated amount. Finally, the document noted that
    pricing could be considered to be fair and reasonable because GSA would
    not allow the vendor a standard price escalation. No evidence exists that
    the CO performed a meaningful price analysis, or even considered the
    individual vendor’s pricing in extending the contract.

·   In another example, a contract extension for photocopier machines,
    maintenance, accessories, and supplies, the CO documented the extension
    action with a summary and unsupported one page justification. The
    justification is a fairly conclusory document that notes that the option
    exercise was in accordance with the FAR because there is an existing
    Government need, and because maintaining continuous coverage was
    paramount.       We note that an equally important FAR-mandated
    consideration is that prices be fair and reasonable. As for price analysis,
    the document noted that an “informal analysis” of prices indicated that the
    option price was the “lowest price.” The file and the document, however, do
    not contain any documents or information reflecting the existence or extent
    of the informal analysis. The justification also noted that extending the
    contract pricing was more favorable than awarding a new contract because
    of Department of Labor-provided prevailing wage rates. We note that the
    contract was primarily for the sale of non-service related products.


Finding 3: Preaward Audits Are Not Being Used Effectively to
Negotiate Better Multiple Award Schedule Prices

The number of preaward audits requested for MAS contract actions has
decreased significantly in recent years, even as total sales under MAS contracts
have increased dramatically. Requesting and effectively using preaward audits
can significantly enhance the pricing achieved on MAS contracts. In our view,
failing to effectively use preawards can inhibit COs’ ability to obtain MFC
pricing. In the seven years prior to adoption of the 1997 GSAR rule relating to
MAS and commercial items acquisitions, COs used audit-developed
information to lower MAS prices by over $618 million.




                                       32
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________

                                     BACKGROUND

Preaward audits review vendors’ MAS proposals in order to determine whether
the pricing information provided is current, accurate, and complete, and to
identify MFC pricing. Preaward audits are provided to COs in advance of
negotiations in order to assist the COs in negotiating favorable pricing for the
Government. The audits typically recommend cost avoidances, which indicate
and quantify areas, including price and terms or conditions, where better
pricing or terms could be negotiated.

In 1997, GSA revamped the rules governing commercial items acquisition and
the MAS program. As part of these regulatory changes, GSA eliminated in
practice postaward pricing audits, which were viewed by vendors as being
unduly burdensome and not in keeping with commercial practice.38 However,
GSA specifically renewed its focus on preaward audits, noting that it expected
“to shift its emphasis to use of preaward audits of information submitted in
support of price negotiations.” 62 Fed. Reg. 44518 (August 21, 1997).

The FAR, as well as GSA guidance to COs, notes the usefulness of preaward
audits of MAS contract actions, especially on complex or large dollar buys. 48
C.F.R. § 15.404-1 (field pricing assistance on proposals).


     FINDINGS: PREAWARD AUDITS REQUESTED ON MAS CONTRACT
     ACTIONS HAVE DECREASED SIGNIFICANTLY IN RECENT YEARS

The number of preaward audits that have been requested in recent years have
decreased significantly. 39 The following chart reflects that in fiscal year 1990,
211 preaward audits were conducted. In fiscal year 1997, the year the final
GSAR rule emphasizing preaward audits was issued, only 8 preawards were
requested and conducted. In fiscal year 2000, 23 preawards were requested
and conducted.




38 We maintained then, and continue to maintain, that there is evidence in commercial practice

for audit clauses generally. See Procurement Reform and the MAS Program, GSA and VA OIGs
(July 1995); Anthology of Commercial Terms and Conditions, GSA FSS Acquisition
Management Center (July 1996).
39 Preawards are generally only conducted upon the request of the contracting officer.




                                              33
________________________________________________________________

FINDINGS               (Continued)
_____________________________________________________________________________

                 Decrease in Preaward Audits Over Time



                        NUMBER OF                                   PERCENTAGE OF
            FISCAL   PREAWARD AUDITS                                 MAS PROGRAM
             YEAR       CONDUCTED         DOLLARS AUDITED *        DOLLARS COVERED

              1990           211              $    3,309,961,437          -
              1991           201              $    3,154,778,830          -
              1992           130              $    1,261,565,667          -
              1993           120              $    3,046,533,069          -
              1994           126              $    1,131,456,202          -
              1995           154              $    1,343,371,143        33%
              1996           94               $    2,320,439,644        56%
              1997            8               $     171,059,500          3%
              1998           28               $    2,027,818,714        26%
              1999           24               $    4,689,128,680        45%
              2000           23               $     694,281,664          5%
                           TOTALS        $        23,150,394,550        25%




*The dollars audited column reflects only the SINS actually reviewed by the audit.    This
 amount is generally less than the total estimated sales under the entire contract.




                                             34
________________________________________________________________

FINDINGS                (Continued)
_____________________________________________________________________________



                         Trends in Negotiated Savings
                            From Preaward Audits


                                                                         PERCENTAGE OF
                                                                         RECOMMENDED
          FISCAL        RECOMMENDED          ACTUAL NEGOTIATED            COST SAVINGS
           YEAR         COST SAVINGS            COST SAVINGS               SUSTAINED
           1990           $    138,777,708       $        79,742,726            57%
           1991           $    187,094,501       $       122,308,686            65%
           1992           $    124,137,170       $        60,356,628            49%
           1993           $    291,625,692       $       167,116,990            57%
           1994           $     77,224,478       $        38,343,749            50%
           1995           $     71,689,451       $        38,523,448            54%
           1996           $    310,075,891       $       174,688,370            56%
           1997           $     21,957,166       $        17,262,310            79%
           1998           $    262,001,309       $         8,392,666             3%
           1999           $    333,111,462       $        18,285,220             5%
           2000           $    271,126,449       $        54,750,510            20%*
                    $         2,088,821,277 $            779,771,303            37%
        *This rate reflects the actual sustained cost avoidances from only 3 audits.



Over roughly the same time period (FY 90-FY 97), sales under MAS contracts
have increased significantly. In fiscal year 1995, the MAS program generated
$4 billion in sales; in fiscal year 1997, MAS program sales increased to about
$5.6 billion. In fiscal year 2000, sales under the program had increased
further to $13.6 billion.




                                                 35
________________________________________________________________

FINDINGS               (Continued)
_____________________________________________________________________________




               MAS Sales in $ vs. Number of Preaward Audits
        $15                                                                 180
                                                                            160
        $13      154
                                                                $13.6       140
        $11
                                                                            120
         $9                                             $10.4               100
                            94
         $7                                                                 80
                                            $7.7                            60
         $5
                                  $5.6                                      40
         $3
              $4.0      $4.1                    28       24         23 20
         $1
                                     8                                      0
              FY 95     FY 96     FY 97     FY 98       FY 99    FY 00



                       MAS Volume in Billions        Number of MAS Audits


Also, during the 4-year time period from fiscal year 1997 through fiscal year
2000, preaward audits were performed on only 83 contract actions. In the 4-
year period prior to this, preaward audits were performed on 494 MAS actions.
These 494 audits resulted in over $418 million in actual cost savings resulting
from improved price negotiations by COs.




                                           36
________________________________________________________________

RECOMMENDED ACTIONS
_____________________________________________________________________________

The recommended actions listed below address each of the findings outlined in
the body of the report.

Finding 1: FSS Is Not Consistently Negotiating Most-Favored Customer
Pricing

Actions --

   v FSS should reemphasize to COs the regulatory requirement that MAS
     negotiations are premised on obtaining MFC pricing. COs should be
     required to note in price negotiation memoranda whether MFC was
     obtained, and if not, to justify why award is nonetheless in the
     Government’s best interest.

   v FSS should institutionally emphasize the requirement to treat the
     Government as one customer (leverage total purchasing power) when
     negotiating MAS contracts.

   v FSS should institute pricing performance measures for MAS contracts.

   v FSS should conduct periodic reviews focusing on the quality of MAS
     negotiations.

Finding 2: Many MAS Contract Extensions Are Accomplished Without
Adequate Price Analysis

Actions --

   v FSS should clarify, consolidate, and emphasize guidance on extensions,
     specifically addressing price analysis methods.

   v FSS should provide training on extensions for COs.

   v FSS should incorporate guidance on pricing MAS extensions into the
     GSAR.

   v FSS should draft standardized updating representations for companies to
     submit for extensions.




                                      37
________________________________________________________________

RECOMMENDED ACTIONS                                (Continued)
_____________________________________________________________________________

Finding 3: Preaward Audits Are Not Being Used Effectively to Negotiate
Better MAS Prices

Actions --

v FSS should issue guidance (Acquisition Letters, Procurement Information
  Bulletins) for using preawards to COs.      Existing guidance should be
  reaffirmed,    with    special   emphasis    on    specifying    particular
  situations/contract actions in which preawards should be requested.

v FSS should request more preaward audits, in accordance with this revised
  guidance.




                                      38
Appendix A – Objectives, Scope and
             Methodology
______________________________________________________________________________

The Office of Audits and the Office of Counsel to the Inspector General jointly
accomplished the work performed in conjunction with this review.

The primary objective of this review was to determine whether FSS is observing
certain pricing-related regulatory provisions relating to negotiating MAS
contracts.

To achieve this review objective, we first examined the current state of MAS
contract negotiations. We reviewed negotiations for 31 MAS contracts from
three of GSA’s top-selling schedules, including photocopiers (11 contracts),
information technology (14 contracts), and furniture (6 contracts). The total
estimated dollar value of the contracts reviewed exceeded $7.4 billion. The
review was based on MAS contracts negotiated and awarded in the 1998-99
time period. Our review included examining preaward audits of the proposals,
records of discussions with the contracting officers regarding negotiations, and
key negotiation documents, including chiefly the price negotiation memoranda.
We held interviews/discussions with FSS procurement officials and acquisition
center directors and contracting officers concerning MAS negotiation objectives,
price analysis, data requirements and other related issues.             We also
interviewed certain federal procurement officials at NIH, the Department of
Veterans Affairs and NASA to discuss competing procurement vehicles.
Further, we interviewed state procurement officials from Massachusetts,
Pennsylvania, Texas, Washington, and Utah, to discuss state procurement
methods.

For the second part of our review, we analyzed 80 MAS contract extensions to
determine whether contracting officers had performed adequate price analyses
of vendors’ offers. We initially reviewed the award of 67 contract extensions
covering 9 schedules. We then performed a supplemental review 18 months
later of an additional 13 contract extensions from 5 different schedules. These
reviews included an examination of the contract files and, in some cases,
discussions with the responsible contracting officials. We determined whether
this documentation met regulatory and other requirements dictating price
analysis steps when MAS contracts are extended through modifications or
through options exercise.

Finally, we examined the number of preaward audits requested by FSS for MAS
contract actions for the period FY 90 through FY 00, in light of the MAS
program’s growth over the same time period.




                                       A-1
Appendix B – Prior General Accounting
             Office Reviews of MAS Pricing
______________________________________________________________________________

In past years, GAO has reviewed the MAS program, including specifically its
negotiation and pricing aspects, and emphasized that GSA COs should be
seeking to obtain MFC pricing. Specifically, GAO has stated that MAS
negotiations should always "start with the best discount given to any of the
vendor's customers but that GSA must consider legitimate differences in terms
and conditions” which are identified and valued by the offeror when negotiating
the GSA price. GAO, Multiple Award Schedule Contracting -- Changes Needed
in Negotiation Objectives and Data Requirements, GAO/GGD 93-123 (August
1993). Prior GAO audit reports had also noted pricing problems within the
MAS schedules program. GAO, Federal Supply Service Not Buying Goods at
Lowest Possible Price, GAO/PSAD-77-69.




                                      B-1
